ES, IG-98-037, NASA Science Research Institutes
NASA SCIENCE RESEARCH INSTITUTES
IG-98-037
Executive Summary
Introduction
In 1995, NASA's Zero Base Review identified the concept of science research
institutes as a potentially beneficial approach to maintain or improve the
quality of science research despite organizational streamlining.  The
strategy involved "privatization" of a portion of the Agency's science
programs into several science research institutes.  Under its Science
Institute Plan, NASA intended to select universities, not-for-profit
organizations, and consortia to operate 11 institutes under competitively
awarded contracts or cooperative agreements to conduct research to support
the missions of selected NASA Centers.  Although NASA announced in June
1996 that its efforts to create the institutes were being discontinued, in
1997 the Agency established the following science research institutes
through the award of cooperative agreements:
National Center for Microgravity Research on Fluids and Combustion (the Microgravity Research Center) at Lewis Research Center,
Institute for Global Change Research and Education at Marshall Space Flight Center,
Research Institute for Advanced Computer Science at Ames Research Center, and
National Space Biomedical Research Institute (the Biomedical Research Institute) at Johnson Space Center.
The first three institutes were established through cooperative agreements
with the Universities Space Research Association (USRA) in Columbia,
Maryland.  The cooperative agreement for the fourth institute is with the
Baylor College of Medicine in Houston, Texas.  Appendix B contains details
on each cooperative agreement award.
Objective
The overall objective was to evaluate the policies, procedures, and
practices that NASA used in establishing science research institutes and
centers.
(1)  Appdneix A contains additional details
on objectives, scope, and methodology.
Results of Audit
NASA generally followed Office of Management and Budget (OMB) policies and
procedures and Agency guidance on the use of cooperative agreements in
establishing the science research institutes.  NASA's Johnson Space Center
established the Biomedical Research Institute in conformity with OMB and
NASA guidance.  However, three other centers2 paid management fees to the
USRA on three cooperative agreements that will total about $1.54 million
over a 5-year period.  NASA did not have policy for the authorization,
justification, and approval of the use of management fees on cooperative
agreements.  As a result, USRA was able to obtain Government reimbursement
for otherwise unallowable costs charged to the cooperative agreements.
Recommendations and Management's Response
This report contains a recommendation aimed at controlling the payment of
management fees on cooperative agreements with non-profit organizations.
Management did not concur with the recommendations in a draft of this report
and provided additional information that we agreed was a sufficient basis
for deleting one recommendation and revising the remaining recommendation.
We request additional management comments on the revised recommendations.
FOOTNOTES
1.  The Microgravity Research Center and the Biomedical
Research Institute were the initial science research institutes established
when audit field work began.  The Institute for Global Change Research and
Education and the Research Institute for Advanced Computer Science were
created after field work began.
2.  Lewis Research Center, Marshall Space Flight Center,
and Ames Research Center.